                            UNITED STATES DEPARTMENT OF EDUCATION
                                             OFFICE OF INSPECTOR GENERAL


                                                                           Evaluation and Inspection Services

                                              March 9, 2012

                                                                                     Control Number
                                                                                     ED-OIG/I13K0002


Anthony W. Miller
Deputy Secretary
U.S. Department of Education
400 Maryland Avenue, S.W.
Washington, DC 20202



Dear Mr. Miller:

This final inspection report presents the results of our review of the U.S. Department of
Education’s (Department’s) process to identify and monitor high-risk grantees and the
Department’s response to the results.

The objectives of our inspection were to: (1) evaluate the Department’s process for identifying
and designating high-risk/at-risk grantees, and (2) evaluate the Department’s process for
monitoring and taking action as a result of the high-risk/at-risk designation. We did not identify
any issues with the processes for managing the designation and monitoring of high-risk formula
grantees; however, we found that these processes had not been formalized. During our
inspection, the Department developed new processes for identifying and monitoring high-risk
discretionary grantees. This process had not been fully implemented at the time of our review
and as a result, we could not draw a conclusion on the effectiveness of this new process.




                                          BACKGROUND


Most of the grants awarded by the Department fall into two categories: formula grants, which are
awarded based on statutorily defined formulas; and discretionary grants, which are competitively
awarded. Formula grants are generally awarded to educational agencies in the 50 States and U.S.
territories, collectively known as State Educational Agencies (SEAs). These SEAs, in turn,
award subgrants to local educational agencies (LEAs), community-based organizations (CBOs),
and other public and private entities. Discretionary grants are awarded to a broader range of

      The Department of Education’s mission is to promote student achievement and preparation for global
                competitiveness by fostering educational excellence and ensuring equal access.
grantees including SEAs and LEAs as well as institutions of higher education and other non-
profit organizations.

After award, the Department is responsible for monitoring and oversight. The Department
tailors oversight activities based on the risk associated with grantees. Historically, the
Department has designated grantees with known issues as “high-risk” or “at-risk.” During our
inspection period, the Department discontinued the use of the term “at-risk” and began using the
terms “Active Engagement” for formula grantees and “Evidence of Risk” for discretionary
grantees. These designations denote a level of risk that does not meet the conditions of “high-
risk” but still requires Department action.

According to Title 34 Code of Federal Regulations (C.F.R.) § 80.12, the Department may
consider a grant to a State or local government to be “high-risk” if a grantee or subgrantee meets
one or more of the following conditions:

        (1) Has a history of unsatisfactory performance,
        (2) Is not financially stable,
        (3) Has a management system which does not meet the management standards [required
            by Department regulations],1
        (4) Has not conformed to terms and conditions of previous awards, or
        (5) Is otherwise not responsible.

The regulation further states that if the awarding agency determines that an award will be made,
special conditions and/or restrictions shall correspond to the high-risk condition and shall be
included in the award.

The criteria under which the Department may impose special conditions on a grant to an
institution of higher education, hospital, or other non-profit organization are at 34 C.F.R.
§ 74.14. The language used in this section is nearly identical to the five conditions listed for
grants to State or local governments; however, this section of the regulations does not explicitly
refer to a “high-risk” designation. Although 34 C.F.R. § 74.14 does not refer to a high-risk
designation, the Department’s “Handbook for the Discretionary Grant Process” (Discretionary
Grant Handbook) provides for its use as an internal designation in conjunction with special
conditions.

According to the Department’s Formula Grant Bulletin: “Special Award Conditions, Other
Special Actions, and High Risk Designations under Formula Grants” (Formula Grant Bulletin),
34 C.F.R. § 80.12 is the high-risk authority used for the Department’s formula grants. For
discretionary grants, the Discretionary Grant Handbook references both 34 C.F.R. §§ 74.14 and
80.12 as high-risk authorities. Both the Discretionary Grant Handbook and the Formula Grant
Bulletin state that it is the Department’s policy to designate a grant or grantee as high-risk
whenever the regulatory standards for high-risk are met. Both documents also state that program
offices may still impose special conditions without using the high-risk designation.


1
 The management standards are set forth in 34 C.F.R. § 80.20 and include standards for financial reporting,
accounting records, internal control, budget control, allowable cost, source documentation, and cash management.

                                                        2
The Department’s Risk Management Service (RMS) was created in October 2007 to work with
all Department components to ensure that each office has effective procedures in place to assess
and mitigate risk among its grantees. RMS is responsible for coordinating and supporting
consistent, quality management of formula and discretionary grants, including related program-
funded activities, Department-wide. RMS is also responsible for developing and coordinating a
Department-wide risk management strategy. RMS is composed of three components charged
with specific duties in RMS’ functional statement: the Management Improvement Team (MIT),
the Program Risk Management and Monitoring Team (PRMMT), and the Grants Policy and
Procedures Team. MIT is the component that has the primary responsibility for managing and
coordinating office activities for the Department’s select portfolio of grants and grantees that are
determined to have high concentrations of risk. MIT is also responsible for coordinating cross-
Department efforts to manage and mitigate risk associated with high-risk and at-risk grants and
grantees.

MIT manages and coordinates Department activities for Department-wide high-risk formula
grantees, while individual program offices are responsible for awarding and monitoring formula
grants. Program offices have primary responsibility for managing the high-risk designation for
discretionary grantees.

The Office of the Deputy Secretary (ODS) recently developed a discretionary grant monitoring
tool, which was pilot tested during Fiscal Year (FY) 2011. The tool, which is supported by
RMS’ Decision Support System (DSS), is intended to make it easier for the Department to
evaluate potential risk to grant funds for specific programs at the individual grant level. The data
used in the DSS come from several sources: the Department’s grants management systems, the
Federal Audit Clearinghouse, the Adverse Accreditation Actions list distributed by the Office of
Postsecondary Education (OPE), and Dun & Bradstreet.2 The primary output of the tool is the
Entity Risk Review report, a spreadsheet containing financial, administrative, and internal
control information on all grant applicants. RMS provides these reports to program offices upon
request for use in identifying and monitoring high-risk grantees, primarily during the initial
award and continuation award periods. The Department informed us that RMS also provides the
reports on formula grant recipients.

Before the Department’s transition to its current grants management system (“G5”) in 2010, the
Grants Administration and Payments System (GAPS) High-Risk Module was the official central
repository for all information related to grants or grantees that have been designated as high-risk.
Now the G5 Risk Module is the official central repository, and it contains:

        a. Identifying information about the high-risk grant or grantee along with the name of a
              Department contact involved in the high-risk designation;
        b. The high-risk designation letter and all other correspondence from or to the grantee
              about the conditions; and
        c. The special conditions or actions imposed as part of the designation and identified in
              the Grant Award Notification (GAN).

2
 Dun & Bradstreet is a corporation that supplies a variety of business information, services, and research. The
Department has a contract with Dun & Bradstreet to include proprietary financial information on Department
grantees in the DSS.

                                                         3
On November 19, 2009, GAO released a report titled “Grant Monitoring: Department of
Education Could Improve Its Processes with Greater Focus on Assessing Risks, Acquiring
Financial Skills, and Sharing Information.” GAO found that the Department had made uneven
progress in implementing a Department-wide, risk-based approach to grant monitoring; had
limited financial expertise and training, hindering effective monitoring of grantees’ compliance
with financial requirements; and lacked a systematic means of sharing information on grantees
and promising practices in grant monitoring throughout the Department. The report contained
three recommendations for the Secretary related to developing guidance and tools for risk
assessment, implementing a strategy to ensure that the Department has sufficient financial
expertise, and developing an information sharing mechanism across program offices. The
Department generally agreed with GAO’s recommendations and said that it was developing an
enhanced risk-based approach to grant monitoring.




                                   REVIEW RESULTS


The objectives of our inspection were to: (1) evaluate the Department’s process for identifying
and designating high-risk/at-risk grantees, and (2) evaluate the Department’s process for
monitoring and taking action as a result of the high-risk/at-risk designation.

The category “at-risk” is no longer used by the Department. The “at-risk” designation was an
informal designation used by RMS when MIT was actively engaged in addressing issues in a
State or territory. This designation is now referred to as “Active Engagement” for formula
grantees and “Evidence of Risk” for discretionary grantees.

At the start of our inspection, RMS, which is responsible for coordinating and supporting
consistent, quality management of both formula and discretionary grants, focused on high-risk
and “Active Engagement” formula grantees. We did not identify any issues with RMS’
processes for managing the designation and monitoring of high-risk formula grantees; however,
we found that these processes had not been formalized.

During our inspection, the Department developed new processes for identifying and monitoring
high-risk and “Evidence of Risk” discretionary grantees. In 2010, ODS developed a process
designed to sensitize the Department’s program offices to risk and lead to more data- and
information-based risk management. These recent ODS initiatives resulted in the development
of a process for the identification and monitoring of high-risk and Evidence of Risk discretionary
grantees, but they had not been fully implemented at the time of our review. As a result, we
could not draw a conclusion on the effectiveness of this new process.




                                                4
Formula Grants

RMS manages the designation and monitoring of Department-wide high-risk formula grantees
through MIT. SEAs in the 50 States and 10 U.S. territories are assigned to MIT staff who serve
as primary contacts for RMS’s risk management activities for SEAs and program offices. As of
December 15, 2011, RMS’s most recent listing of grantee risk designations states that 20 of 60
SEAs are “Active Engagement Grantees” and four of these are identified as “Department-wide
High-Risk Grantees.” SEAs are formally notified of their risk designation status only if they are
designated as high-risk.

MIT staff are also responsible for monitoring issues and conducting research on all of their
assigned SEAs to identify risks and to determine whether a risk designation might be needed for
those SEAs not already designated high-risk or Active Engagement. The primary sources of
information used by MIT staff in their research to identify risks are Office of Management and
Budget Single Audit findings, OIG audit findings, and business and financial data purchased
from Dun & Bradstreet. Individual MIT staff members use these resources to varying degrees
when performing research to identify risks. Currently, there is no written guidance on how this
information is to be assessed or weighed to determine whether an Active Engagement
designation is necessary.

For SEAs designated high-risk or Active Engagement, MIT helps to centralize the risk
management process by working with program offices to coordinate site visits, write corrective
action plans and special conditions, and work with SEAs toward compliance. MIT coordinates
and involves program offices that administer grants to high-risk and Active Engagement SEAs
and LEAs by placing grantees’ reports and site visit summaries in a shared folder on the
Department’s intranet and by conducting weekly conference calls with program offices to
discuss risk strategies and specific issues at SEAs and LEAs. RMS provided guidance to
program officials regarding the establishment of special award conditions, other special actions,
and high-risk designations for formula grantees through the release of the Formula Grant
Bulletin in November 2010, but this bulletin does not address MIT’s internal processes.

We did not identify any issues with MIT’s internal processes described above; however, we
found that these processes had not been formalized. Because MIT plays a role in centralizing the
Department’s interaction with high-risk formula grantees, it is in a position to document internal
best practices for use in identifying and monitoring the Department’s riskiest formula grantees.
Formalization of MIT’s internal processes would serve as a valuable knowledge management
resource for the Department and ensure consistency in identifying and monitoring high-risk
formula grantees.


Discretionary Grants

Individual program offices are responsible for identifying and monitoring high-risk discretionary
grantees. When we began our inspection, individual program offices did not have a common
understanding of the use and management of the high-risk designation and special conditions for
discretionary grantees. During our inspection, the Department developed processes for

                                                5
identifying and monitoring high-risk and Evidence of Risk discretionary grantees and tracking
special conditions, but those processes had not been fully implemented.

The primary way in which ODS has addressed the identification of discretionary grant risk is
through the development of Entity Risk Review reports. These reports provide program offices
with additional information related to grantee administrative capability, financial risk, and
internal control risk. The information in these reports allows program offices to identify
evidence of risk and, in consultation with RMS and OGC, determine the necessity of risk
mitigation actions. Risk mitigation actions can include heightened project management (more
frequent desk reviews or conference calls to discuss performance, fiscal management, or internal
controls), on-site visits, special conditions, or designation as high-risk.

The Department also developed a policy that allows program offices to use Entity Risk Review
reports in the grant award process. On May 16, 2011, RMS issued Grant Policy Bulletin 11-01
titled “Assessing Grant Applicant and Grant Recipient Risk Prior to Making New and
Continuation Awards” (Grant Policy Bulletin). It provides guidance for assessing an entity’s risk
prior to issuing a new or continuation award and for actions that may be taken when staff
identifies evidence of risk. It also requires program offices to conduct a risk assessment prior to
granting an award. The Grant Policy Bulletin states that prior to a new discretionary grant award
or continuation award, program offices should review the grantee and identify evidence of risk
which may include: the existence of past performance or financial issues, noncompliance with
audit requirements or other administrative issues, or audit or monitoring findings. Program
offices may use the Entity Risk Review reports to comply with this Grant Policy Bulletin
requirement. The Grant Policy Bulletin also requires risk information to be recorded in slate
memos, official files, and the G5 Risk Module when evidence of risk is identified.3

Before the issuance of the Grants Policy Bulletin and the transition from GAPS to G5, the
Department did not have a policy or method for centrally collecting special conditions. Program
offices were required to consult the GAPS High-Risk module when awarding discretionary
grants, but the module collected special conditions for only grantees designated as high-risk.
Program offices often impose special conditions on grantees without using the high-risk
designation. As a result, prior to the Grants Policy Bulletin and transition to G5, there were
significant interactions between the Department and grantees that were not being communicated
to other program offices that award and monitor discretionary grants.

With the introduction of the G5 Risk Module, special conditions imposed on a grantee as a result
of an Evidence of Risk designation are now centrally located. Program offices are required to
review the information in the module, ask for updates from the principal office that entered the
information, and determine whether a high-risk designation or any special conditions are
necessary. This process had not been fully implemented at the time of our review. As a result,
we could not draw a conclusion on the effectiveness of this new process.




3
  A slate memo is a formal list of the grant applications recommended for funding and the recommended funding
level for each application.

                                                       6
Recommendations

We recommend that the Deputy Secretary ensure RMS:

   1.1 - Formalizes MIT’s formula grant processes to serve as a knowledge management
         resource and ensure consistency in identifying and monitoring high-risk formula
         grantees; and

   1.2 - Monitors whether the new processes for identifying and monitoring high-risk and
         Evidence of Risk discretionary grantees are effective.




                             DEPARTMENT COMMENTS


On January 19, 2012, we provided the Department with a copy of our draft inspection report for
comment. We received the Department’s comments to the report on February 22, 2012. The
Department generally concurred with our results and recommendations and provided a description of
the actions it is prepared to take consistent with our recommendations. The Department also
provided technical comments which we have considered and incorporated into the final report, as
applicable. The Department’s response is attached in its entirety.




                  OBJECTIVE, SCOPE, AND METHODOLOGY


The objectives of our inspection were to:

   (1) Evaluate the Department’s process for identifying and designating high-risk/at-risk
       grantees; and
   (2) Evaluate the Department’s process for monitoring and taking action as a result of the
       high-risk/at-risk designation.

We notified the Department of our inspection on February 25, 2010, and began our fieldwork on
March 8, 2010. We conducted an exit conference on December 16, 2011.

We reviewed the Department’s Handbook for the Discretionary Grant Process; the Department
Bulletin: Special Award Conditions, Other Special Actions, and High Risk Designations under
Formula Grant; the Department’s Grant Policy Bulletin 11-01: Assessing Grant Applicant and
Grant Recipient Risk Prior to Making New and Continuation Awards; individual program office
monitoring plans; and documents related to ODS’ Programmatic Risk Management Group’s
work. We interviewed ODS officials, OGC attorneys, Programmatic Risk Management Group
members, RMS leadership, MIT staff, PRMMT staff, and the heads of RMS’ policy and

                                                7
customer service teams. We also interviewed relevant officials in the following grant-making
offices: the Office of Innovation and Improvement, the Office of Postsecondary Education, the
Office of Elementary and Secondary Education, the Office of Special Education and
Rehabilitative Services, and the Institute of Education Sciences.

We also reviewed GAPS data including listings of: grants designated as high-risk, high-risk
organizations by Data Universal Numbering System (DUNS) numbers, awards associated with
those high-risk organizations, all formula and discretionary grants awarded in FY 2009, all grant
transactions in FY 2009, and GAPS table descriptions.

Our inspection was performed in accordance with the Quality Standards for Inspections, 2005,
as appropriate to the scope of the inspection described above. These standards were adopted by
the Council of the Inspectors General on Integrity and Efficiency in 2009.



                             ADMINISTRATIVE MATTERS


An electronic copy of this final inspection report has been provided to your Audit Liaison Officer.
We received your comments, which generally concurred with our results and recommendations.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices will
be monitored and tracked through the Department’s Audit Accountability and Resolution Tracking
System (AARTS). Department policy requires that you enter your final corrective action plan (CAP)
for our review in the automated system within 30 days of the issuance of this report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector General is
required to report to Congress twice a year on the audits that remain unresolved after six months
from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of
Inspector General are available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.

Respectfully,

/s/

Wanda A. Scott
Assistant Inspector General
Evaluation, Inspection, and Management Services


Electronic cc: Beverly Babers, Chief Administrative Officer, Office of the Deputy Secretary
               Phil Maestri, Director, Risk Management Service
               Heather Acord, Audit Liaison Officer, Office of the Deputy Secretary

                                                  8
                         UNITED STATES DEPARTMENT OF EDUCATION
                                                                              THE DEPUTY SECRETARY




                                         February 21, 2012



Ms. Wanda A. Scott
Assistant Inspector General
 for Evaluation, Inspection, and Management Services
Office of Inspector General
U.S. Department of Education
Washington, DC 20202

Dear Ms. Scott:

I am writing in response to the draft Office ofinspector General (O IG) inspection report on the
Department's process for identifying and monitoring high-risk grantees (ED-OIGII 13K0002).

As the report describes, the Department's Office of the Deputy Secretary (ODS) Risk
Management Service (RMS) leads, coordinates, and supports Department-wide efforts to assess
and mitigate risk among the agency ' s grant recipients. RMS activities include developing
policies and tools to identify and manage risk and leading oversight and technical assistance for a
se lect portfolio of grant recipients that the Department has designated as high risk or selected for
"active engagement." The development of the Decision Support System to mine data on grant
Jecipients, the pilot-testing of Entity Risk Reviews to inform pre-award risk management, and
the enhancements to the G5 grants management system are recent important initiati ves that
support the agency 's management of risk among grant recipients.

We recognize the importance of continuous improvement to ensure that the Department
maximizes the effectiveness of the risk management process. To this end, the Department
generally concurs with the draft OIG inspection results and recommendations. To ensure the
accuracy of the information contained in this inspection report, technical comments are provided
as all enclosure to :.his :etter. To addiess the OIG recommendations, ODS proposes .he actions
described below.

Recommendation 1. 1: Ensure RMS formalizes MIT's formula grant processes to serve as a
knowledge management resource and ensure consistency in identifying and monitoring high-risk
fonnula grantees.

Response: Consistent with the OIG recommendation, RMS will capture key risk assessment
procedures successfully used to implement the standards for ri sk assessment, which are cod ified
in 34 CFR §80.12. The Department will enhance its internal agency guidance on risk assessment
to include these key procedures and provide program offices with additional ri sk mitigation
strategies to address identified risk.




                            400 MARYLAND AVE. S.W., WASHINGTON, DC 20202
                                            www.ed.gov




                                                  9
Page 2

Consistent with the OIG recommendation, RMS will also document the standards and principles
that it uses to identify and manage risk in formula grants to state agencies, recognizing that each
agency has unique problems and challenges that require customized solutions. RMS will also
capture information about practices for assisting recipients to improve their financial
management and grant administration. RMS will synthesize the experiences into a set of
principles that will guide future engagements. Assuming the necessary information technology
resources are available, RMS will make thi s information available throughout the Department
electronically. RMS expects to complete this work by December 3 1,20 12.

Recommendation 1.2: Ensure RMS monitors whether the new processes for identifying and
monitoring high~risk and Evidence of Risk discretionary grantees are effective.

Response: The Department is committed to continuously improving its ability to analyze grant
risk, share information about recipient risk across the agency, and promote risk~based
monitoring. RMS's plans to improve and assess thi s work, as described below, are consistent
with the OIG recommendations.

RMS's efforts to assess whether the new processes established to better identify and monitor
high~risk and Evidence of Risk discretionary grantees build upon its work over the last year. In
fiscal year 2011, RMS evaluated the impact of the processes and tools pilot~tested by collecting
feedback from program officers that used ERRs in fiscal year 2011. This information was used
to create an evaluation report and inform the development of the fiscal year 2012 version of the
ERR. Throughout fiscal year 2012, RMS will continue to collect information about risk
identification and mitigation practices for grants awarded in fiscal year 20 12. RMS has
embedded risk consultants in several program offices in order to facilitate the ongoing collection
of feedback from program offices using the fiscal year 2012 version of the ERR. This data will
be used to determine if the ERR is effective at meeting program officers' needs and to inform the
design of new reports for programs. This data collection will also address how program officers
have used ERR reports and risk data for grant slate development and clearance. In addition,
RMS and the Policy and Program Studies Service in the Office of Planning, Evaluation, and
Policy Development plan to procure a third~party evaluation of the effect of Entity Risk Review
on the Department's grants administration. Proposed enhancements to G5 that facilitate the
capture ofrisk~related information will also be assessed as part ofthe fiscal year 2012 evaluation
of the ERR. These efforts should enable RMS to assess the effectiveness of the processes and
tools. RMS expects to complete the evaluation of fiscaJ year 20 12 ERR implementation by
January 31, 2013.

Finally, we have included in the Organizational Performance Review framework, with which we
assess each office's annual performance, an expectation that each principal office wi ll create a
risk~based approach to monitoring. RMS is providing technical assistance and advice to the
program offices as they develop and refine their plans for fiscal year 2012.




                                                 10
Page 3

We appreciate the opportunity to discuss the Department's actions to strengthen the grant risk
management process and trust that yOll will consider this response in the preparation of your
final inspection report.

                                             Sincerely.



                                             Mtthony W. Miller

Enclosure




                                                  11
                                 Technical Comments

I. Page 3, 2nd paragraph, 4 th sentence: De lete and tire Customer Service Team. The
   fu nct ions of the Customer Service Team have been delegated to the Management
   Improvement Team and the Program Risk Management and Monitoring Teams in RMS.
   There are no staff members on the Customer Service Team.

2. Page 3, 3rd paragraph, 1st sentence: Insert Department-wide before high-riskformula
   grantees. Grant recipients may be designated high risk for an individual grant.

3. Page 3, last paragraph: add at end, RMS also provides tire reports on tire formula grant
   recipients to inform monitoring and oversight strategies.

4. Page 5, Formula Grants, 1st paragraph, 1st sentence: Insert Department-wide before
   high-risk formula grantees through MIT.




                                           12
